No.
IN THE
SUPREME COURT OF THE UNITED STATES
MAURICE L. ROSS, PETITIONER
vs
UNITED STATES OF AMERICA, RESPONDENT

PROOF OF SERVICE
The undersigned hereby certifies that on this date I have served the enclosed
Motion For Leave To Proceed In Forma Pauperis and Petition For A Writ Of
Certiorari on each party to the above proceeding or that party’s counsel and on
every other person required to be served, in the manner indicated, addressed as
follows:
VIA EMAIL:
Carlo D. Marchioli, Esquire
Assistant U.S. Attorney
carlo.d.marchioli@usdoj.gov
VIA PRIORITY MAIL:
Elizabeth Prelogar, Acting Solicitor General
Office of the Solicitor General
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001

September 10, 2021

s/Richard F. Maffett, Jr.
Richard F. Maffett, Jr., Esquire
Attorney for Petitioner Maurice Ross

